Department of Homeland Security
   Ofﬁce of Inspector General


     DHS' Use of Suspension and Debarment 

    Actions for Poorly Performing Contractors





OIG-10-50                              February 2010
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 25028




                                      February 2, 2010

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report identifies areas where improvements can be made in the department’s process
for evaluating poorly performing contractors for potential suspension and debarment
actions. It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................5


     Suspension and Debarment Policies, Procedures, and Practices ...................................5 


     Recording Contractor Performance Information ...........................................................6 


Recommendations................................................................................................................7


Management Comments and OIG Analysis ........................................................................7 



Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................10 

     Appendix B:           Management Comments to the Draft Report .......................................12 

     Appendix C:           Suspension and Debarment Practices ..................................................20 

     Appendix D:           Major Contributors to this Report........................................................23 

     Appendix E:           Report Distribution ..............................................................................24 


Abbreviations
     DHS                   Department of Homeland Security 

     FAR                   Federal Acquisition Regulations 

     C.F.R.                Code of Federal Regulations
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                    We reviewed the Department of Homeland Security’s procedures
                    and practices to suspend and debar poorly performing contractors.
                    The objective of our review was to determine whether the
                    department has suspension and debarment policies and procedures
                    in place and is appropriately applying the policies and procedures
                    to protect the government’s interest.

                    The Department of Homeland Security has suspension and
                    debarment policies and procedures in place. However, the
                    department is reluctant to apply the policies and procedures against
                    poorly-performing contractors. Department procurement officials
                    characterized the suspension and debarment process as being too
                    resource intensive, punitive, and as negatively impacting the size
                    of the contractor pool. The procurement officials prefer to use
                    other administrative remedies to address poor contractor
                    performance. We identified 23 instances where contracts were
                    terminated for default or cause but were not reviewed to determine
                    whether a suspension and debarment referral was warranted.
                    Reluctance to pursue suspension and debarment could put the
                    department and the government at risk of continuing to conduct
                    business with poorly performing contractors and may result in
                    decreased productivity and increased cost.

                    The department is also not recording pertinent contract
                    performance data for poorly performing contractors. We identified
                    21 instances where contracts were terminated for default, the
                    reasons for which were not recorded in government-wide
                    databases. As a result, there is an increased risk the government
                    could unknowingly contract with entities that have a history of
                    unsatisfactory performance.

                    The report contains two recommendations to improve the
                    effectiveness of the department’s suspension and debarment
                    program. The Under Secretary for Management concurred with
                    the recommendations and outlined plans and actions to improve
                    suspension and debarment policies and procedures.



        DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors

                                           Page 1
Background
                          The Department of Homeland Security spends an estimated 40%
                          of its annual congressional appropriation through contracts and
                          grants. The department’s FY 2009 appropriation was $43 billion,
                          of which an estimated $17 billion is expected to be spent through
                          federal contracts and grants.

                          Federal Acquisition Regulations Regarding Suspension and
                          Debarment

                          Federal Acquisition Regulations (FAR) require agencies to solicit
                          offers from, award contracts to, and consent to subcontracts only
                          with responsible contractors. Suspensions and debarments are
                          discretionary actions that agencies implement to protect the federal
                          government by excluding contractors who commit fraud, behave
                          unethically, or willfully fail to perform or have a history of failure
                          to perform according to the terms of a contract from conducting
                          business with the federal government.1

                          Suspensions are temporary in nature and are used to protect the
                          federal government until investigations and any ensuing legal
                          proceedings that could lead to debarment actions are completed.
                          In no event may a suspension extend beyond 18 months, unless
                          legal proceedings have been initiated within that period. Causes
                          for suspension actions include, among others, adequate evidence of
                          the following:

                          �	 Commission of fraud or a criminal offense in connection with
                             obtaining, attempting to obtain, or performing a public contract
                             or state contract;
                          �	 Commission of embezzlement, theft, forgery, bribery,
                             falsification or destruction of records, making false statements,
                             tax evasion, violating federal criminal tax laws, or receiving
                             stolen property;
                          �	 Commission of any other offense indicating a lack of business
                             integrity or business honesty that seriously and directly affects
                             the present responsibility of a government contractor or
                             subcontractor; or



1
 48 C.F.R. § 9.402(b), "The serious nature of debarment and suspension requires that these sanctions be
imposed only in the public interest for the Government's protection and not for the purposes of
punishment."

             DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors

                                                  Page 2
                           �	 Any other cause of so serious or compelling a nature that it
                              affects the present responsibility of a government contractor or
                              subcontractor.

                           Debarments, on the other hand, generally do not exceed 3 years but
                           can be extended if it is determined that it is in the government’s
                           best interest. Causes for debarment actions include, among others,
                           the following:

                           �	 Conviction of or civil judgment for fraud, violation of antitrust
                              laws, embezzlement, theft, forgery, bribery, false statements, or
                              other offenses indicating a lack of business integrity;
                           �	 Violation of the terms of a government contract or subcontract
                              so serious as to justify debarment, such as a willful failure to
                              perform in accordance with the terms of one or more contracts
                              or a history of failure to perform, or of unsatisfactory
                              performance of, one or more contracts;
                           �	 Noncompliance with Immigration and Nationality Act
                              employment provisions;2 or
                           �	 Any other cause of so serious or compelling a nature that it
                              affects the present responsibility of the contractor or
                              subcontractor.

                           The FAR requires agencies to list all suspended or debarred
                           contractors in the General Services Administration’s Excluded
                           Parties List System.

                           DHS Suspensions and Debarments

                           The DHS Office of the Chief Procurement Officer has agency-
                           wide responsibility for the suspension and debarment of
                           contractors. Until recently, the department designated its
                           components’ Heads of Contracting Activity as the suspension and
                           debarment officials for all component-related contracts under the
                           Homeland Security Acquisition Manual. The Homeland Security
                           Acquisition Manual was amended in October 2009 to give the
                           DHS Chief Procurement Officer sole authority to waive suspension
                           and debarment actions and award contracts to entities that are
                           currently suspended or debarred

                           From FY 2004 through FY 2008, the department initiated 10
                           debarment cases as well as one suspension case pending the results

2
    See Executive Order 12989, as amended by Executive Order 13286.


               DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors

                                                  Page 3
                          of a supporting criminal investigation. The 10 debarment cases
                          resulted in 23 debarment actions against the individuals, corporate
                          entities, and their affiliates. Nine of the 10 debarment cases were
                          initiated because of violations of the Immigration and Nationality
                          Act and a fraud conviction. The tenth debarment case was initiated
                          by the Coast Guard at the behest of the Defense Contract
                          Management Agency for business integrity and contract
                          performance-related reasons identified during a Defense Criminal
                          Investigation Service investigation.

                          Recording Contractor Past Performance

                          The FAR requires agencies to prepare an evaluation of contractor
                          performance for each contract that exceeds the simplified
                          acquisition threshold ($100,000 in most cases) when contract work
                          is complete.3 Additionally, the FAR recommends that contractor
                          performance information be documented on an annual basis when
                          the contract period is for more than 1 year. Until recently, the
                          Homeland Security Acquisition Manual required that DHS record
                          all contractor performance evaluations in the Contractor
                          Performance System. Effective September 1, 2009, the Contractor
                          Performance Assessment Reporting System replaced the
                          Contractor Performance System as the central repository for DHS
                          contractor performance evaluations. The Contractor Performance
                          System and the Contractor Performance Assessment Reporting
                          System feed information regarding contractor performance into the
                          Past Performance Information Retrieval System, a government-
                          wide database mandated by the Office of Management and Budget.
                          The Past Performance Information Retrieval System is a source of
                          contractor performance information utilized by other government
                          agencies when assessing a contractor's ability to perform a contract
                          successfully. Department Heads of Contracting Activity are the
                          agency officials responsible for ensuring that contractor
                          performance evaluations are prepared and entered into the
                          appropriate databases in accordance with agency regulations.




3
  See 48 C.F.R. § 42.1502 (b)(requirement to evaluate); 48 C.F.R. § 2.101 (“simplified acquisition
threshold” defined).


             DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors

                                                  Page 4
Results of Audit
     Suspension and Debarment Policies, Procedures, and Practices
                   The Department of Homeland Security has suspension and
                   debarment policies and procedures in place. However, the
                   department is reluctant to apply the policies and procedures against
                   poorly-performing contractors. Department procurement officials
                   characterized the suspension and debarment process as being too
                   resource intensive, punitive, and as negatively impacting the size
                   of the contractor pool. The procurement officials prefer to use
                   other administrative remedies to address poor contractor
                   performance. We identified 23 instances where contracts were
                   terminated for default or cause but were not reviewed to determine
                   if a suspension and debarment referral was warranted. Reluctance
                   to pursue suspension and debarment could put the department and
                   the government at risk of continuing to conduct business with
                   poorly performing contractors and may result in decreased
                   productivity and increased cost. In our view, the department needs
                   to develop and implement a set of policies, procedures, and
                   internal controls to ensure that poorly performing contractors,
                   including those whose services are terminated or considered for
                   termination for default or cause are reviewed to determine whether
                   a referral to a suspension and debarment official is warranted.

                   Suspension and Debarment Practices of Other Agencies and
                   Departments

                   We reviewed the suspension and debarment practices of several
                   other federal agencies. Their practices offer insight into ways the
                   department could improve its suspension and department actions.
                   A summary of other department and agency actions is presented
                   below, and a more complete description of the practices is
                   provided in appendix C.

                   �	 The United States Air Force, the United States Army, and the
                      Department of Housing and Urban Development placed their
                      suspension and debarment functions within their Offices of
                      General Counsel, which have dedicated staffs with the legal
                      expertise and training necessary to pursue, investigate, and
                      defend suspension and debarment actions. An Air Force
                      official also noted that this organizational placement eliminates
                      any perceived conflict of interest.



       DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors

                                          Page 5
              �	 The Environmental Protection Agency, the United States Navy,
                 and the United States Air Force have a single suspension and
                 debarment official. According to officials we interviewed,
                 having a single suspension and debarment official who is not
                 affiliated with the acquisition community provides a fair and
                 unbiased platform to evaluate referrals and maintain program
                 continuity.

              �	 The Department of Transportation requires annual submission
                 to the Office of Senior Procurement Executive of a detailed list
                 of all cases in which suspension and debarment actions were
                 considered, initiated, or completed, along with the status or
                 outcome of each case. The submission includes cases in which
                 information was received, even when no suspension or
                 debarment action was initiated. When no action was initiated,
                 the Operating Administrations or Secretarial Office must
                 include an explanation regarding why action was not taken.


Recording Contractor Performance Information
              The department’s components are not recording in federal
              databases, contractor performance information for contracts that
              are terminated for cause or default. We identified 23 instances
              where the department’s components exercised their right to
              terminate a contract because of a contractor’s failure to perform.
              However, we found no information as to the circumstances and
              conditions underlying the decisions to terminate 21 of the 23
              contracts in either the Contractor Performance System or the Past
              Performance Information Retrieval System. As a result, pertinent
              contract performance information is not being recorded and
              disseminated to procurement specialists across government for use
              in making future source selection determinations.

              With the exception of construction and architect-engineering
              service contracts, there is no government-wide requirement for
              agencies to document when a contractor had been terminated for
              cause or default, regardless of the circumstances or the dollar value
              of the contract. Despite the absence of such requirements, we
              believe that it is always in the government’s best interest to be
              aware of a contractor’s failure to perform. Recording the identity
              of poorly performing contractors and the rationale underlying
              termination decisions in agency and government-wide databases
              would increase the knowledge base of government procurement
              professionals, thereby reducing the risk of entering into contractual


  DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors

                                     Page 6
                         relationships with individuals and corporate entities that have
                         histories of not performing in accordance with contract
                         requirements.

                         Amendments to the FAR have been proposed to expand the
                         requirement for agencies to record contractor performance
                         information for contracts that have been terminated for cause or
                         default.4 However, until these changes are implemented, we
                         believe the department should develop and implement the policies,
                         procedures, and internal controls to ensure that all pertinent
                         contractor performance information associated with contracts
                         terminated for cause or default is recorded in the appropriate
                         agency and government-wide databases.



                Recommendations
                         We recommend that the Under Secretary for Management:

                         Recommendation #1: Develop and implement a set of policies,
                         procedures, and internal controls to ensure that poorly performing
                         contractors whose contracts that have been terminated or are being
                         considered for termination for default or cause, are reviewed to
                         determine whether a referral to the suspension and debarment
                         official is warranted. The referral determination process should be
                         fully-documented and able to demonstrate that the decision is in
                         the government’s best interest.

                         Recommendation #2: Develop and implement a set of policies,
                         procedures, and internal controls to ensure that all pertinent
                         contractor performance information is recorded in the appropriate
                         agency and government-wide databases to be disseminated to
                         procurement professionals across government for use in future
                         source selections.


                Management Comments and OIG Analysis
                         The DHS Under Secretary for Management concurred with our
                         recommendations and provided information on plans and actions
                         taken to improve policies, procedures, and internal controls
                         governing the use of suspension and debarment for poorly

4
 Federal Register, Volume 74, Number 169, September 2, 2009, "Federal Acquisition Regulation; FAR
Case 2008-016, Termination for Default Reporting"


            DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors

                                               Page 7
            performing contractors. The Under Secretary provided
            clarifications and technical comments as well, which we used to
            update this report as appropriate. The changes made do not
            materially impact the message, findings, or examples we used in
            this audit report

            Management Comments to Recommendation 1

            Concur: The department has developed the policies, procedures,
            and internal controls intended to increase its awareness of poorly
            performing contractors whose contracts have been terminated or
            considered for termination. Contracting officers must provide the
            Office of the Chief Procurement Officer with a copy of the
            termination notice for any order exceeding $1 million. The notice
            is to be accompanied by a brief discussion of the contract or order
            being terminated, the circumstances of the termination, and the
            anticipated impact. Contracting officers must also provide a copy
            of any determination of nonresponsibility to the suspending and
            debarring official when the determination is based in whole or part
            on the prospective contractor’s:

                 �	 Lack of satisfactory performance record under DHS 

                    contracts;

                 �	 Lack of a satisfactory record of integrity and business
                    ethics; or,
                 �	 Inability to qualify or ineligibility under applicable laws
                    and regulations.

            Finally, the department stated its intention to conduct an oversight
            review during the fourth quarter of FY 2010 to determine the
            extent to which its components are complying with Homeland
            Security Acquisition Manual requirements.

            OIG Analysis: The actions taken satisfy the intent of this
            recommendation. This recommendation is resolved, but will
            remain open until we have evaluated the results of the FY 2010
            compliance review.

            Management Comments to Recommendation 2

            Concur: The Under Secretary for Management concurred that all
            pertinent contractor performance information, as defined by statute
            and/or regulation, needs to be recorded in appropriate agency and
            government-wide databases. DHS has conducted agency-wide
            training for contracting personnel, contracting officer’s technical


DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors

                                   Page 8
            representatives, and others involved in the process. In addition,
            DHS has published updated guidance in the Homeland Security
            Acquisition Manual to prescribe policies and procedures that
            implement and supplement FAR guidance.

            OIG Analysis: The actions taken satisfy the intent of this
            recommendation. This recommendation is resolved and closed.




DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors

                                   Page 9
Appendix A
Purpose, Scope, and Methodology

                     Our objective was to determine the extent to which DHS has
                     policies and procedures in place and is enforcing federal
                     suspension and debarment requirements.

                     We reviewed contracts that were suspended, debarred, or
                     terminated for default during FYs 2004 through 2008 for the
                     following DHS component agencies: Federal Emergency
                     Management Agency, Customs and Border Protection,
                     Immigration and Customs Enforcement, Transportation Security
                     Administration, United States Coast Guard, and United States
                     Citizenship and Immigration Services.

                     We interviewed relevant component personnel regarding the
                     suspension and debarment process. We also interviewed officials
                     at several federal agencies to discuss the elements of their
                     suspension and debarment programs and associated internal
                     controls. We selected the other agencies based on activity reported
                     in the Excluded Parties List System and the Federal Procurement
                     Database System.

                     We reviewed criteria for suspension and debarment of contractors
                     in the Federal Acquisition Regulations, the Homeland Security
                     Acquisition Regulations, and the Homeland Security Acquisition
                     Manual. We evaluated internal controls that were pertinent to the
                     audit objective, and we reviewed DHS suspension and debarments
                     listed in the Excluded Parties List System for FYs 2004 through
                     2008. We also reviewed audit reports by other agencies.

                     We obtained data on the number of contracts terminated for default
                     in FYs 2004 through 2008 from each of the components. We also
                     identified contracts terminated for default or cause by using
                     www.usaspending.gov, a website that provides data from the
                     Federal Procurement Data System (FPDS). The FPDS database
                     has been evaluated by the Government Accountability Office as a
                     reliable source for aggregate contracting and procurement data, but
                     it may not be reliable for specific contracting information. We
                     followed up with the components to verify information in the
                     Federal Procurement Data System. We compared the list of
                     contracts terminated for default to information provided in the Past
                     Performance Information Retrieval System. We limited our use of
                     Past Performance Information Retrieval System to the comparison
                     of contractor evaluations for contracts that had been identified as
                     terminated for default by other sources.



         DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors

                                            Page 10
Appendix A
Purpose, Scope, and Methodology

                     Additionally we interviewed suspension and debarment officials
                     from the Department of Housing and Urban Development, United
                     States Air Force, United States Army, the Environmental
                     Protection Agency, the Department of Transportation, General
                     Services Administration, and the National Procurement Fraud Task
                     Force.

                     We conducted this performance audit between September 2008
                     and February 2009 according to generally accepted government
                     auditing standards. Those standards require that we plan and
                     perform the audit to obtain sufficient, appropriate evidence to
                     provide a reasonable basis for our findings and conclusions based
                     on our audit objectives. We believe that the evidence obtained
                     provides a reasonable basis for our audit findings and conclusions
                     based on our audit objectives.




         DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors

                                            Page 11
Appendix B
Management Comments to the Draft Report




         DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors 


                                            Page 12

Appendix B
Management Comments to the Draft Report




         DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors 


                                            Page 13

Appendix B
Management Comments to the Draft Report




         DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors 


                                            Page 14

Appendix B
Management Comments to the Draft Report




         DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors 


                                            Page 15

Appendix B
Management Comments to the Draft Report




         DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors 


                                            Page 16

Appendix B
Management Comments to the Draft Report




         DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors 


                                            Page 17

Appendix B
Management Comments to the Draft Report




         DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors 


                                            Page 18

Appendix C
Suspension and Debarment Practices




         DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors 


                                            Page 19

Appendix C
Suspension and Debarment Practices

We identified the following practices at other federal agencies:

Increasing Suspension and Debarment Program Communication and
Awareness

   1.	 Appointed representative regularly attends Interagency Suspension and
       Debarment meetings.

       Department of Transportation: A departmental representative attends the
       Interagency Suspension and Debarment Committee meetings and is the sole
       conduit of information input to the Excluded Parties List System for the
       Department.

   2.	 Provide regular procurement fraud training to Contracting Officers,

       Contracting Officer’s Technical Representatives, and field agents, as 

       applicable.


       United States Air Force: Initial awareness training is administered/documented
       for all new employees.

   3.	 A website, newsletter, or other means of communication is used to provide
       employees with up-to-date information regarding how to report misconduct,
       current administrative agreements, and detailed information regarding
       completed suspension and debarments.

       Department of Transportation: The Department of Transportation’s website
       provides extensive details on the suspension and debarment program and
       supplements the Federal Acquisition Regulation. The website provides extensive
       information on the Department of Transportation’s suspension and debarment
       program. The site contains a “Frequently Asked Questions” section where it
       provides guidance to agency personnel as well as to individuals who have been
       referred for suspension and/or debarment.

   4.	 Provide Specific Guidance on the Procedures for the Investigation and
       Referral of Contractors by Contracting Officers

       United States Air Force: The Air Force Federal Acquisition Regulation
       Supplement requires that the contracting officer shall promptly notify the
       Secretary of the Air Force, Deputy General Counsel for Contractor Responsibility
       or their designate, when they become aware of issues affecting contractor
       responsibility. The contracting officer is required to provide all known
       information relating to any non-responsibility determination; any indictment,
       conviction, or civil judgment relating to an offeror’s or contractor’s lack of
       integrity or business honesty, regardless of whether the indictment, conviction, or


           DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors

                                              Page 20
Appendix C
Suspension and Debarment Practices

      civil judgment is related to a government contract; or any recommendation for a
      termination for default.�

Taking a Proactive Approach to Protect the Government’s Interest

   1.	 Negligent contractors enter into Administrative Agreements, agreeing to take
       certain actions that will protect the government.

      General Services Administration: The General Services Administration advised
      that an administrative agreement is appropriate if the suspending and debarring
      official is convinced that it is in the best interest of the government to continue
      business with a contractor, but feels the contractor needs to be monitored. If the
      contractor agrees to implement procedures and systems that protect the
      government, an administrative agreement can be put in place and the contractor
      will be removed from the Excluded Parties List System.

   2.	 Attend quarterly departmental suspension and debarment review panels.
       Each agency sends appointed representatives to present suspension and
       debarment referrals, actions, administrative compliance agreements, and/or
       contracts terminated for cause.

      Department of Transportation: The Office of the Senior Procurement Executive
      chairs a quarterly meeting for all Operating Administrations to discuss suspension
      and debarment within the department. All Office Administrations have to attend,
      in accordance with Department of Transportation directive DOT Order 4200.5D,
      Government wide Debarment, Suspension, and Ineligibility.

Using Data Management to Improve Program Oversight and Execution

   1.	 The department reports and tracks suspension and debarment referrals and
       actions in a central database. The database has a mechanism for providing
       periodic reporting of status or results of suspension and debarment actions to
       the department.

      Department of Housing and Urban Development: The Department of Housing
      and Urban Development hired contractors to develop a referral tracking system
      that suspension and debarment analysts use to input referrals. The system allows
      for all pertinent data, respondent information, notes, communications, analysis,
      and other information to be placed in the system and tracked. The system also
      enables Housing and Urban Development to pull reports to identify problem areas
      and to print those reports.




          DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors

                                             Page 21
Appendix C
Suspension and Debarment Practices


      Department of Transportation: The Department of Transportation utilizes
      Microsoft SharePoint (2003) to track all referrals. This web-based system
      provides subordinate component agencies (as well as headquarters elements with
      a need to know) proper access to view, comment, or add pertinent data to each
      referral.

      United States Air Force: The Air Force uses a contractor-designed database to
      track suspension and debarment referrals. The database is a web-based tracking
      system.




         DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors

                                            Page 22
Appendix D
Major Contributors to this Report

              Richard T. Johnson, Director, Immigration and Enforcement Programs
              Robert Greene, Desk Officer, Immigration and Enforcement Programs
              Jeanette Hyatt, Project Lead
              Holly Snow, Program Analyst in Charge
              Anthony Colache, Program Analyst
              Virginia Feliciano, Auditor
              Ebenezer Jackson, Program Analyst
              Falon Newman-Duckworth, Program Analyst
              Brian Smythe, Program Analyst




          DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors

                                             Page 23
Appendix E
Report Distribution



                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff for Operations
                       Chief of Staff for Policy
                       Deputy Chiefs of Staff
                       General Counsel
                       Executive Secretariat
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs
                       Office of the Chief Procurement Officer Liaison
                       Customs and Border Protection Liaison
                       Federal Emergency Management Agency Liaison
                       Immigration and Customs Enforcement Liaison
                       Transportation Security Administration Liaison
                       United States Coast Guard Liaison
                       Citizenship and Immigration Services Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




          DHS’ Use of Suspension and Debarment Actions for Poorly Performing Contractors 


                                             Page 24

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
